Appendix A-1
Nebraska Supreme Court
Online Library
www.nebraska.gov/appscourts-epub/ 04/13/2020
04:16 PM CDT
Nebraska Supreme Court Advance Sheets
305 Nebraska Reports
HBI, L.L.C. v. BARNETTE
Cite as 305 Neb. 457
HBI, L.L.C., appellee, v.
Walter D. Barnette, appellant.
___ N.W.2d ___
Filed April 10, 2020. No. S-19-147.
1. Constitutional
Law:
Statutes.
The
constitutionality
of
statutes
and
statutory
interpretation present questions of law.
2. Tax Sale: Time. Tax sale proceedings are
governed by the law in effect at the time the tax sale
certificate was sold.
3. Tax Sale: Time: Liens. Under Neb. Rev.
Stat. § 77-1801 (Reissue 2009), properties with
delinquent real estate taxes on or before the first
Monday of March may be sold at a tax sale. The tax
sale purchaser acquires a lien on the property, which
is represented by a tax certificate.
4. Tax Sale. A property owner may redeem a
property after a tax certificate has been issued with
payment of the amount noted on the tax certificate,
other taxes subsequently paid, and interest.
5. Tax Sale: Time: Deeds: Foreclosure. If,
after 3 years of the issuance of a tax certificate, a
property has not been redeemed, there are two

Appendix A-2
methods by which the holder of the tax certificate may
acquire a deed to the property: the tax deed method
and judicial foreclosure.
6. Tax Sale: Deeds: Notice. A tax deed acts to
convey the property and may be issued by the county
treasurer after proper notice is provided.
7. Tax Sale: Foreclosure: Liens. Judicial
foreclosure requires the holder of a tax certificate to
foreclose on the lien for taxes in the district court of
the county where the property is located.
8. Dismissal and Nonsuit. Under Neb. Rev.
Stat. §§ 25-601 and 25-602 (Reissue 2016), a plaintiff
has the right to dismiss an action without prejudice
any time before final submission of the case, so long
as no counterclaim or setoff has been filed by an
opposing party.
9. Tax Sale: Deeds: Dismissal and Nonsuit.
The language used to distinguish between the two
methods of converting a tax certificate into a deed in
Neun v. Ewing, 290 Neb. 963, 863 N.W.2d 187 (2015),
did not abrogate the tax certificate holder’s right to
voluntary dismissal under Neb. Rev. Stat. §§ 25-601
and 25-602 (Reissue 2012).
10. Tax Sale: Notice. If a titled owner cannot be
found upon diligent inquiry, Neb. Rev. Stat. § 77-1834
(Reissue 2009) permits the purchaser or his or her
assignee to publish the notice in some newspaper
published in the county and having a general
circulation in the county or, if no newspaper is printed
in the county, then in a newspaper published in
Nebraska nearest to the county in which the real
property is situated.

Appendix A-3
11. Tax Sale: Notice: Proof: Words and
Phrases. The word “found” in Neb. Rev. Stat. § 771834 (Reissue 2009) means able to be served, and the
statute authorizes the holder of a tax certificate to
provide notice by publication if the record owner was
unable to be served by certified mail at the address
where the property tax statement was mailed, upon
proof of compliance with Neb. Rev. Stat. § 77-1832
(Reissue 2009), if the owner in fact lived at such
address.
12. Tax
Sale:
Statutes.
Even
the
misidentification of the purchaser on an actual tax
deed does not render it void. If a tax deed is in
compliance with the statutory requirements, the
misidentification would, at most, necessitate
reformation of the tax deed.
13. Tax Sale: Deeds. There is no language in
Neb. Rev. Stat. § 77-1831 (Reissue 2009) requiring
that the party applying for the tax deed be included.
14. Constitutional
Law:
Statutes:
Presumptions: Proof. A statute is presumed to be
constitutional, and all reasonable doubts are resolved
in favor of its constitutionality. The burden of
establishing the unconstitutionality of a statute is on
the one attacking its validity.
15. Constitutional Law: Statutes: Proof. The
unconstitutionality of a statute must be clearly
established before it will be declared void.
16. Tax Sale: Notice. Neb. Rev. Stat. § 77-1832
(Reissue 2009) requires service at the address where
the property tax statement is mailed, and thus, it is
reasonably calculated to provide notice to the property
owner.

Appendix A-4
17. ____:____. Notice by publication under Neb.
Rev. Stat. § 77-1834 (Reissue 2009) is limited to
circumstances where the record owner resides at the
address where the property tax statement is mailed,
but he or she is unable to be served there.
Appeal from the District Court for Sarpy County:
STEFANIE A. MARTINEZ, Judge. Affirmed.
Edward F. Noethe, of McGinn, Springer &
Noethe, P.L.C., for appellant.
Jeffrey J. Blumel and Gretchen L. McGill, of
Dvorak Law Group, L.L.C., for appellee.
HEAVICAN, C.J., MILLER-LERMAN, CASSEL, STACY,
FUNKE, PAPIK, and FREUDENBERG, JJ.
HEAVICAN, C.J.
I. INTRODUCTION
This is an appeal from an action to quiet title after
issuance of a tax deed. Appellant, Walter D. Barnette,
argues that a notice of application for a treasurer’s
deed was defective and that the statutory scheme
relating to notice requirements for obtaining a tax
deed is unconstitutional on due process grounds. We
affirm.
II. BACKGROUND
On March 5, 2013, Pontian Land Holdings LLC
(Pontian) purchased a certificate of tax sale for real
property after Barnette failed to pay real estate taxes
on the property. The property was located at “Lot 2,
Swaney’s Addition Replat I, an Addition to the City of
Bellevue, as surveyed, platted and recorded, Sarpy
County, Nebraska.” After waiting the statutorily

Appendix A-5
required 3 years, Pontian initially filed a judicial
foreclosure action on the property, but later dismissed
the action and filed an application for a treasurer’s tax
deed.
As required by Neb. Rev. Stat. § 77-1831 (Reissue
2009), Pontian sent notice of its intent to apply for a
treasurer’s deed for the property by certified mail,
return receipt requested, to the address where the
property tax statement was mailed. This address was
Barnette’s residence, which was located in
Pottawattamie County, Iowa. The notice listed
Pontian as the purchaser of the real property, but
erroneously stated that Guardian Tax Partners Inc.
(Guardian) would apply for the treasurer’s tax deed.
The notice also listed Guardian as the sender of the
certified mail. Although Barnette resided at the
address where the notice was sent, the notice was
returned as “unclaimed.” Handwriting on the certified
mail receipt indicates the post office had made three
attempts to deliver the notice prior to returning it as
unclaimed. Pontian subsequently published notice in
a Sarpy County newspaper for 3 consecutive weeks.
On August 29, 2016, the Sarpy County treasurer
issued a treasurer’s tax deed in Pontian’s name.
Pontian filed a complaint, seeking to quiet title on the
property. Barnette filed a counterclaim to quiet title
in his name. Pontian later transferred the property to
HBI, L.L.C., and HBI was substituted as plaintiff in
the case. On October 31, 2017, Barnette filed a motion
for summary judgment that was later withdrawn. On
January 30, 2018, HBI filed a motion for summary
judgment. On February 14, Barnette filed a second
motion for summary judgment. Both motions were
denied by the district court as being premature.
On October 12, 2018, HBI filed a second motion
for summary judgment. On October 22, Barnette filed

Appendix A-6
a third motion for summary judgment. Barnette later
amended his counter-claim with leave from the
district court. The counterclaim alleged Pontian’s
notice
was
defective
and
challenged
the
constitutionality of the notice requirements set forth
in Neb. Rev. Stat. §§ 77-1832 to 77-1835 (Reissue
2009) on due process grounds. Specifically, Barnette
argued that because Pontian knew Barnette lived in
Pottawattamie County, Iowa, notice by publication in
Sarpy County violated his right to due process.
On January 15, 2019, the district court granted
HBI’s amended second motion for summary judgment
and denied Barnette’s third motion for summary
judgment. The district court quieted title in favor of
HBI after finding that Barnette was given sufficient
notice in compliance with Nebraska law and that the
notice did not violate the due process requirements of
the U.S. Constitution or the Nebraska Constitution.
Barnette now appeals the district court’s order
granting summary judgment in favor of HBI and
denying Barnette’s third motion for summary
judgment.
III. ASSIGNMENTS OF ERROR
Barnette assigns that the district court erred in
(1) not finding that Pontian’s original election of
foreclosure barred the tax deed process, (2) finding the
notice provided complied with Nebraska statutes,
(3) not finding the Nebraska tax sale statutory scheme
violated the U.S. Constitution and the Nebraska
Constitution, (4) finding Barnette’s due process rights
under the U.S. Constitution and the Nebraska
Constitution were not violated, and (5) not quieting
title to Barnette.

Appendix A-7
IV. STANDARD OF REVIEW
[1] The constitutionality of statutes and statutory
interpretation present questions of law. 1
V. ANALYSIS
1. ORIGINAL ELECTION OF
JUDICIAL FORECLOSURE
In his first assignment of error, Barnette argues
Pontian’s claim for a tax deed was barred by its
original election to proceed to judicial foreclosure.
[2-7] The Legislature’s recent amendments to tax
sale statutes notwithstanding, the proceedings at
issue in this case are governed by the law in effect on
December 31, 2009. 2 Under Neb. Rev. Stat. § 77-1801
(Reissue 2009), properties with delinquent real estate
taxes on or before the first Monday of March may be
sold at a tax sale. The tax sale purchaser acquires a
lien on the property, which is represented by a tax
certificate. 3 A property owner may redeem a property
after a tax certificate has been issued with payment of
the amount noted on the tax certificate, other taxes
subsequently paid, and interest.4 If, after 3 years, the
property has not been redeemed, there are two
methods by which the holder of a tax certificate may
acquire a deed to the property: the tax deed method
and judicial foreclosure. 5 A tax deed acts to convey the
property and may be issued by the county treasurer
Pfizer v. Lancaster Cty. Bd. of Equal., 260 Neb. 265, 616 N.W.2d
326 (2000).
2 See Neb. Rev. Stat. § 77-1837.01(2) (Cum. Supp. 2016).
3 See Neb. Rev. Stat. § 77-1818 (Reissue 2009).
4 See Neb. Rev. Stat. § 77-1824 (Reissue 2009). See, also, SID No.
424 v. Tristar Mgmt., 288 Neb. 425, 850 N.W.2d 745 (2014).
5 See SID No. 424, supra note 4.
1

Appendix A-8
after proper notice is provided. 6 Judicial foreclosure
requires the holder of a tax certificate to foreclose on
the lien for taxes in the district court of the county
where the property is located. 7
Barnette relies on language in Neun v. Ewing 8 to
support his argument that Pontian’s application for a
tax deed was barred by its initial filing of a foreclosure
action. In Neun, property owners attempted to redeem
their property after a foreclosure action had been filed
using the procedure set forth in § 77-1824, authorizing
redemption from a tax sale prior to the issuance of a
tax deed. This court held that once judicial foreclosure
has begun, only the separate redemption procedure
established by Neb. Rev. Stat. § 77-1917 (Reissue
2009) is available. 9 Recognizing that the two
procedures for converting a tax sale certificate into a
deed are not interchangeable, the court concluded that
once the holder has elected to proceed
under chapter 77, article 19, the
provisions of such article govern the
rights of the parties in relation to the tax
sale certificate. In other words, after the
election to proceed by judicial foreclosure
has been made, both the holder and the
property owner are bound by that
election. 10
In arriving at its holding, the court articulated:
“‘Although the overall objective of both procedures is
the recovery of unpaid taxes on real property, these
[procedures] “are two separate and distinct methods
See § 77-1831 and Neb. Rev. Stat. § 77-1837 (Reissue 2009).
See Neb. Rev. Stat. § 77-1902 (Reissue 2009).
8 Neun v. Ewing, 290 Neb. 963, 863 N.W.2d 187 (2015).
9 See id.
10 Id. at 970, 863 N.W.2d at 194.
6
7

Appendix A-9
for the handling of delinquent real estate taxes”’
which are ‘neither comparable nor fungible.’” 11
[8] Barnette argues that this language precluded
Pontian from applying for a tax deed because it
initially filed a foreclosure action. Neun is
distinguishable. The issue in Neun was the manner of
redemption permitted once the holder of a tax sale
certificate had elected to proceed with judicial
forfeiture. Moreover, Barnette’s interpretation of
Neun is inconsistent with a plaintiff’s statutory right
to voluntary dismissal. Under Neb. Rev. Stat. §§ 25601 and 25-602 (Reissue 2016), a plaintiff has the
right to dismiss an action without prejudice any time
before final submission of the case, so long as no
counterclaim or set-off has been filed by an opposing
party.
[9] Here, Pontian’s foreclosure action was
dismissed prior to a summons being issued, and no
complaint was served on Barnette in that action.
Thus, Pontian had a statutory right to voluntarily
dismiss its initial filing without prejudice. We hold
that Pontian’s election to initially file and dismiss the
judicial foreclosure action did not preclude his
application for a tax deed. In addition, we clarify that
the language used to distinguish between the two
methods of converting a tax certificate into a deed in
Neun did not abrogate the tax certificate holder’s right
to voluntary dismissal under §§ 25-601 and 25-602. In
this case, Pontian had a right to voluntary dismissal
under §§ 25-601 and 25-602 because no counterclaim
or setoff had been filed. 12

Id.
See id. See, also, Adair Asset Mgmt. v. Terry’s Legacy, 293 Neb.
32, 875 N.W.2d 421 (2016) (stating that existence of different

11
12

Appendix A-10
2. NOTICE UNDER § 77-1831
(a) Publication in Sarpy County
In his second assignment of error, Barnette first
argues that publication in Sarpy County was
insufficient notice because Pontian knew Barnette
lived in Pottawattamie County, Iowa.
A tax sale purchaser is not entitled to a tax deed
unless he or she provides sufficient notice to the
property owner at least 3 months prior to the
application for the tax deed. 13 A tax deed is
presumptive evidence that notice has been served or
published as statutorily required. 14
[10] Although the Legislature has since amended
§ 77-1832, the version of the statute governing the
proceedings at issue here provided, in relevant part,
that “[s]ervice of the notice provided by section 771831 shall be made by certified mail, return receipt
requested, upon the person in whose name the title to
the real property appears of record to the address
where the property tax statement was mailed . . . .” If
the titled owner could not be found upon diligent
inquiry, § 77-1834 permitted the purchaser or his or
her assignee to publish the notice “in some newspaper
published in the county and having a general
circulation in the county or, if no newspaper is printed
in the county, then in a newspaper published in this
state nearest to the county in which the real property
is situated.”

procedures available to holder to convert tax sale certificate into
deed does not affect meaning of tax sale certificate).
13 See § 77-1831.
14 See Neb. Rev. Stat. § 77-1842 (Reissue 2009).

Appendix A-11
In Wisner v. Vandelay Investments, 15 this court
addressed whether the applicable language in §§ 771832 and 77-1834 permitted the holder of a tax
certificate to serve a property owner by publication
after being unable to serve her by certified mail when
the holder had actual knowledge of the property
owner’s location. In that case, the holder had sent
notice by certified mail, return receipt requested, but
the notice was returned as “‘unclaimed.’” 16 This court
held that the holder had completely complied with the
notice requirements of § 77-1832 by proceeding to
service by publication after the owner was unable to
be served by certified mail at the address where the
property tax statement was mailed. 17
[11] We further held that the word “found” in
§ 77-1834 meant “‘able to be served’” and that the
statute authorized the holder of a tax certificate to
provide notice by publication if the record owner was
unable to be served by certified mail at the address
where the property tax statement was mailed, upon
proof of compliance with § 77-1832, if the owner in fact
lived at such address. 18 The court warned that a
contrary holding would permit a property owner that
was already deficient in paying real estate taxes to
force a judicial foreclosure proceeding by avoiding the
notice. 19
Here, Pontian sent notice of its application for a
tax deed by certified mail, return receipt requested, to
the address where the property tax statement was
mailed—Barnette’s residence in Pottawattamie
Wisner v. Vandelay Investments, 300 Neb. 825, 916 N.W.2d 698
(2018).
16 Id. at 853, 916 N.W.2d at 721.
17 See id.
18 See id.
19 See Wisner, supra note 15.
15

Appendix A-12
County, Iowa. Barnette had continuously resided at
this address for 4 years and had received notices of
taxes due on the property at this address. However,
Pontian’s notice was returned as “unclaimed.” Pontian
then published the notice in Sarpy County as required
by § 77-1834. The tax deed was issued after Pontian
had complied with both §§ 77-1832 and 77-1834.
Section 77-1834 only authorized service by publication
in the county where the property was located. 20
Because Pontian was not required to publish notice in
any other county except Sarpy County, Pontian’s
actual knowledge of Barnette’s location is irrelevant
for purposes of this assignment of error. 21 We hold
that Barnette has not met his burden of rebutting the
statutory presumption that Pontian’s notice was
sufficient and that his second assignment of error is
accordingly without merit.
(b) Misidentification of Guardian
In his second assignment of error, Barnette
further argues that the notice was defective because it
showed Guardian, rather than Pontian, as the party
who would apply for the deed. HBI maintains that the
error in listing Guardian was immaterial and did not
negate the sufficiency of the notice.
Section 77-1831 provides:
No purchaser at any sale for taxes or
his or her assignees shall be entitled to a
deed from the treasurer for the real
property so purchased unless such
purchaser or assignee, at least three
months before applying for the deed,
serves or causes to be served a notice
20
21

See id.
See id.

Appendix A-13
stating when such purchaser purchased
the real property, the description
thereof, in whose name assessed, for
what year taxed or specially assessed,
and that after the expiration of three
months from the date of service of such
notice the deed will be applied for.
[12] Pontian’s notice included the information
required and correctly listed Pontian as the party who
had purchased the property. Further, this court has
held that even the misidentification of the purchaser
on the actual tax deed does not render it void. In
Ottaco Acceptance, Inc. v. Larkin, 22 the purchaser of a
tax certificate had later assigned the tax certificate to
another entity. The assignee requested, and was
issued, a tax deed for the property, but the tax deed
incorrectly identified the assignee as the original
purchaser of the property. 23 This court held that the
tax deed was in compliance with the statutory
requirements and that the misidentification would, at
most, necessitate reformation of the tax deed. 24
[13] We hold that the inclusion of Guardian as the
party that would apply for the tax deed does not
render the notice defective, as there is no language in
§ 77-1831 requiring that the party applying for the tax
deed be included. This court will not read into a
statute a meaning that is not there.25

22 Ottaco Acceptance, Inc. v. Larkin, 273 Neb. 765, 733 N.W.2d
539 (2007).
23 See id.
24 See id.
25 See Wisner, supra note 15; State v. Gill, 297 Neb. 852, 901
N.W.2d 679 (2017); State v. Mortensen, 287 Neb. 158, 841 N.W.2d
393 (2014).

Appendix A-14
As previously stated, Barnette’s
assignment of error is without merit.

second

3. CONSTITUTIONALITY OF NEBRASKA’S
TAX SALE NOTICE REQUIREMENTS AND
BARNETTE’S DUE PROCESS RIGHTS
In his third and fourth assignments of error,
Barnette argues Nebraska’s statutory scheme for tax
sales is unconstitutional on due process grounds.
Specifically, Barnette asserts that his due process
rights were violated when Pontian published its notice
in Sarpy County pursuant to § 77-1834, knowing
Barnette resides in Pottawattamie County, Iowa. The
district court found that Pontian had complied with
the statutory notice requirements before applying for
the tax deed and that the procedures used did not
violate Barnette’s due process rights.
(a) Presumption of Constitutionality
[14,15] A statute is presumed to be constitutional,
and all reasonable doubts are resolved in favor of its
constitutionality. 26 The burden of establishing the
unconstitutionality of a statute is on the one attacking
its validity. 27 The unconstitutionality of a statute
must be clearly established before it will be declared
void. 28
(b) Notice Requirement
Before the government may deprive a person of
their property, the government must provide “notice
reasonably calculated, under all the circumstances, to
26 State ex rel. Bruning v. Gale, 284 Neb. 257, 817 N.W.2d 768
(2012).
27 Id.
28 Id.

Appendix A-15
apprise interested parties of the pendency of the
action and afford them an opportunity to present their
objections.” 29 In Mullane v. Central Hanover Tr. Co., 30
the U.S. Supreme Court held that when a recipient’s
address is known, the determination of whether the
method of notice is “reasonably calculated” is analyzed
at the time the notice is sent. 31
(c) Jones v. Flowers
In his brief, Barnette cites Jones v. Flowers 32 in
support of his argument that Nebraska’s tax deed
notice requirements are unconstitutional. In that
case, the U.S. Supreme Court held that the
government’s attempt at providing notice of a tax sale
was insufficient to satisfy due process when the notice
was returned as unclaimed and that the government
failed to take additional reasonable steps to provide
notice to the property owner before the property was
sold. 33
In Jones, the property owner had moved from his
home in Little Rock, Arkansas, into an apartment in
Little Rock after he and his wife were separated. The
mortgage company had been paying the property
taxes until the mortgage was paid off, and then the
taxes became delinquent. Three years later, the
Commissioner of State Lands (Commissioner) sent
Mullane v. Central Hanover Tr. Co., 339 U.S. 306, 314, 70 S.
Ct. 652, 94 L. Ed. 865 (1950).
30 Mullane, supra note 29.
31 Id., 339 U.S. at 318 (“[w]here the names and post office
addresses of those affected by a proceeding are at hand, the
reasons disappear for resort to means less likely than the mails
to apprise them of its pendency”).
32 Jones v. Flowers, 547 U.S. 220, 126 S. Ct. 1708, 164 L. Ed. 2d
415 (2006).
33 Id.
29

Appendix A-16
the owner, by certified mail, notice of the tax
delinquency and information about his right to
redeem the property. The certified letter was sent to
the address of the property where the owner’s wife
still lived and was returned as “‘“unclaimed.”’” 34
Two years later, the Commissioner published a
notice of public sale in the newspaper. The publication
occurred a few weeks prior to the public sale. The
Commissioner mailed a second certified letter after
receiving a purchase offer for the home, warning the
house would be sold if the delinquent taxes were not
paid. Again, the letter was returned as
“‘unclaimed.’” 35 The owner was eventually notified of
the sale when the purchaser had an unlawful detainer
notice delivered to the property, and the notice was
served on the owner’s daughter.
The owner in Jones filed a lawsuit against the
Commissioner and the purchaser, alleging that the
Commissioner’s failure to provide notice of the tax
sale and the right to redeem constituted a taking of
his property without due process. The trial court
granted summary judgment in favor of the
Commissioner and the purchaser, and the Arkansas
Supreme Court affirmed, holding that the
Commissioner’s attempt to provide notice by certified
mail satisfied due process. The U.S. Supreme Court
reversed, holding 5 to 3 that under the circumstances
presented, “[t]he Commissioner’s effort to provide
notice to [the owner] of an impending tax sale of his
house was insufficient to satisfy due process . . . .” 36
The Court in Jones recognized that Arkansas’
statutory scheme for providing notice of a tax sale
Id., 547 U.S. at 224.
Id.
36 Id., 547 U.S. at 239.
34
35

Appendix A-17
likely satisfied the requirements for due process
because sending certified mail to an address that the
owner was required by law to keep updated is
reasonably calculated to reach the property owner.
However, in examining the “‘practicalities and
peculiarities of the case,’” 37 the Court compared the
Commissioner’s knowledge of ineffective service to
sending notice with actual knowledge that the notice
was unlikely to reach the recipient because he was
imprisoned or incompetent. Because the letter
concerned the “important and irreversible” prospect of
losing one’s home, the Court held that additional steps
were required. 38
(d) Constitutionality of §§ 77-1832
and 77-1834
In the present case, Barnette has failed to meet
his burden of establishing Nebraska’s statutory notice
requirements are unconstitutional. Section 77-1832
authorizes notice by certified mail, return receipt
requested, to the address where the property tax
statement is mailed. If the record owner is unable to
be served by certified mail, § 77-1834 authorizes
notice by publication upon proof of compliance with
§ 77-1832 if the record owner lives at the address
where the property tax statement was mailed. 39
[16,17] Because § 77-1832 requires service at the
address where the property tax statement is mailed,
it is reasonably calculated to provide notice to the
property owner. 40 Further, notice by publication
under § 77-1834 is limited to circumstances, such as
those presented here, where the record owner resides
Id., 547 U.S. at 230 (quoting Mullane, supra note 29).
Id., 547 U.S. at 230.
39 See Wisner, supra note 15.
40 See Jones, supra note 32.
37
38

Appendix A-18
at the address where the property tax statement is
mailed, but he or she is unable to be served there. 41
For these reasons, we hold that the applicable notice
requirements are constitutionally sufficient.
(e) Barnette’s Right to Due Process
Barnette has also failed to establish that issuance
of the tax deed was in violation of his due process
rights. In Dusenbery v. United States, 42 the U.S.
Supreme Court recognized that the use of the postal
service to send certified mail is “a method our cases
have recognized as adequate for known addresses.” 43
The Court confirmed that in determining whether
due process requirements are satisfied, it is the
method of notice that is analyzed and not the result. 44
In Jones, the Court articulated that “the failure of
notice in a specific case does not establish the
inadequacy of the attempted notice.” 45 And, when
assessing the adequacy of notice, “unique information
about an intended recipient” must be considered. 46
The test in Jones for the constitutional sufficiency
of notice is case specific and analyzes whether the
action was something that someone “‘desirous of
actually informing’” the homeowner would do. 47
Because additional reasonable steps were available to
the
State,
given
the
circumstances,
the
Commissioner’s effort to provide notice to the owner
See id.
Dusenbery v. United States, 534 U.S. 161, 122 S. Ct. 694, 151
L. Ed. 2d 597 (2002).
43 Id., 534 U.S. at 169 (emphasis supplied).
44 See Dusenbery, supra note 42.
45 Jones, supra note 32, 547 U.S. at 231.
46 Id., 547 U.S. at 230.
47 Id.
41
42

Appendix A-19
was insufficient to satisfy due process. What is
“reasonable in response to new information depends
upon what the new information reveals.” 48
The dissent, and the authority it cites, interprets
Jones as establishing a new rule requiring the
government to make additional attempts at providing
notice each time notice is returned as unclaimed.
However, the Jones Court explicitly stated: “[W]e
disclaim any ‘new rule’ that is ‘contrary to Dusenbery
and a significant departure from Mullane.’” 49
(i) Sufficient Notice Under
Dusenbery and Mullane
The test in Dusenbery for the constitutional
sufficiency of notice is whether the chosen method is
“‘reasonably calculated’ to apprise a party of the
pendency of the action.” 50 As discussed above, both
Dusenbery and Mullane recognized that when a
recipient’s address is known, sending notice by
certified mail satisfies due process. 51
Under the circumstances presented here,
Pontian’s attempt to provide Barnette with notice of
its intent to apply for a tax deed failed; however, under
both Dusenbery and Mullane, the attempted notice
was adequate. Pontian had actual knowledge of
Barnette’s address in Iowa and sent notice to that
address. This knowledge is one of the “‘practicalities
and peculiarities of the case’” 52 and must be taken into
account when assessing the adequacy of notice.
Because Pontian had actual knowledge of Barnette’s
Id., 547 U.S. at 234.
Id., 547 U.S. at 238.
50 Dusenbery, supra note 42, 534 U.S. at 170.
51 See, Dusenbery, supra note 42; Mullane, supra note 29.
52 See Jones, supra note 32, 547 U.S. at 230.
48
49

Appendix A-20
address, the method of service was reasonably
calculated to apprise Barnette of Pontian’s intent to
apply for a tax deed. Accordingly, we hold that the
notice was constitutionally sufficient.
The dissent contends that the focus of Jones was
on the fact that the certified mail went unclaimed. We
disagree. In Jones, the Court was clearly focused on
two “‘practicalities and peculiarities of the case’” 53
that may vary the notice required: 54 the government’s
knowledge and the fact that the property interest at
stake was the owner’s home.
(ii) “New Wrinkle” in Jones
The “new wrinkle” presented in Jones was
whether the government’s knowledge that notice has
failed vitiates the reasonableness of the method used
under the circumstances presented. This is
demonstrated by the Court’s extensive reliance on two
of its prior holdings: Robinson v. Hanrahan 55 and
Covey v. Town of Somers. 56
Robinson involved a forfeiture proceeding where
the State had complied with the statutory
requirements for providing notice, but knew the
owner was incarcerated at the time. The Court held
that the State’s manner of service was not reasonably
calculated to apprise the owner of the proceeding
because the State knew the individual was not at the
address to which the notice was mailed and knew that
Id.
Id., 547 U.S. at 227 (“question presented is whether such
knowledge on the government’s part is a ‘circumstance and
condition’ that varies the ‘notice required’”).
55 Robinson v. Hanrahan, 409 U.S. 38, 93 S. Ct. 30, 34 L. Ed. 2d
47 (1972).
56 Covey v. Town of Somers, 351 U.S. 141, 76 S. Ct. 724, 100 L.
Ed. 1021 (1956).
53
54

Appendix A-21
the individual was unable to get to that address at the
time the notice was sent. 57 Similarly, in Covey, the
Court held that notice of foreclosure by mailing,
posting, and publication did not satisfy due process
requirements because government officials knew that
the property owner was incompetent and that she did
not have the protection of a guardian.
Jones did not create a formulaic test for deciding
when additional attempts at notice are required. The
Court determined the return of the owner’s letter as
unclaimed constituted “new information” revealed to
the government. 58 That information must then be
taken into account as one of the “‘practicalities and
peculiarities of the case’” when determining whether
the attempt at notice was adequate. 59 If the attempt
was not adequate, there is an obligation to take
additional steps that are reasonable under the
circumstances, “if practicable to do so.” 60
The new information presented in Jones was that
the owner had either (1) moved from the address or
(2) failed to retrieve the certified letter from the post
office. Based on this conclusion, the Court provided
examples of reasonable steps that could have been
implemented after the letter’s return. In doing so, the
Court advised: “What steps are reasonable in response
to new information depends upon what the new
information reveals.” 61

Robinson, supra note 55.
Jones, supra note 32, 547 U.S. at 234.
59 See id., 547 U.S. at 230.
60 See id., 547 U.S. at 234.
61 Id.
57
58

Appendix A-22
(iii) Balancing Interests
“‘[D]ue process is flexible and calls for such
procedural protections as the particular situation
demands.’” 62 In Mathews v. Eldridge, 63 the U.S.
Supreme Court instructed that in determining
whether the procedures used in providing notice are
constitutionally sufficient, the governmental and
private interests are analyzed using three distinct
factors. These factors include:
First, the private interest that will be
affected by the official action; second, the
risk of an erroneous deprivation of such
interest through the procedures used,
and the probable value, if any, of
additional or substitute procedural
safeguards;
and
finally,
the
Government’s interest, including the
function involved and the fiscal and
administrative
burdens
that
the
additional or substitute procedural
requirement would entail. 64
In Jones, the Court reaffirmed that the
reasonableness of notice requires “[b]alancing a
State’s interest in efficiently managing its
administrative system and an individual’s interest in
adequate notice.” 65 When concluding that notice to the
owner was inadequate, the Court gave special

Mathews v. Eldridge, 424 U.S. 319, 334, 96 S. Ct. 893, 47 L.
Ed. 2d 18 (1976) (quoting Morrissey v. Brewer, 408 U.S. 471, 92
S. Ct. 2593, 33 L. Ed. 2d 484 (1972)).
63 Mathews, supra note 62.
64 Id., 424 U.S. at 335.
65 Jones, supra note 32, 547 U.S. at 240.
62

Appendix A-23
importance to the fact that the property owner was “in
danger of losing his house.” 66 The Court stated:
In this case, the State is exerting
extraordinary power against a property
owner—taking and selling a house he
owns. It is not too much to insist that the
State do a bit more to attempt to let him
know about it when the notice letter
addressed
to
him
is
returned
unclaimed.” 67
And, “when a letter is returned by the post office,
the sender will ordinarily attempt to resend it, if it is
practicable to do so. . . . This is especially true when
. . . the subject matter of the letter concerns such an
important and irreversible prospect as the loss of a
house.” 68 The Court emphasized: “We do not think
that a person who actually desired to inform a real
property owner of an impending tax sale of a house he
owns would do nothing when a certified letter sent to
the owner is returned unclaimed.”69
While the property at issue is one factor to be
considered, we do not, as the dissent suggests, limit
Jones to cases involving houses. The fact that Jones
involved an occupied house was information that must
be considered when determining whether the notice
Id., 547 U.S. at 238.
Id., 547 U.S. at 239 (emphasis supplied).
68 Id., 547 U.S. at 230 (emphasis supplied).
69 Id., 547 U.S. at 229 (emphasis supplied). See, also, id., 547 U.S.
at 229 (“we evaluate the adequacy of notice prior to the State
extinguishing a property owner’s interest in a home”) (emphasis
supplied); id., 547 U.S. at 238 (“at the end of the day, that
someone who actually wanted to alert [the owner] that he was in
danger of losing his house would do more when the attempted
notice letter was returned unclaimed, and there was more that
reasonably could be done”) (emphasis supplied).
66
67

Appendix A-24
was adequate. “[A]ssessing the adequacy of a
particular form of notice requires balancing the
‘interest of the State’ against ‘the individual interest
sought to be protected by the Fourteenth
Amendment.’” 70
In Jones, the Court was balancing the
government’s interest against the owner’s interest in
an occupied home, and evidence was presented to
show that Arkansas’ statutes already required a
homeowner to be served by personal service if certified
mail is returned. Here, Barnette is attacking the
constitutionality of the tax deed issued to Pontian.
There is a presumption of constitutionality, and
Barnette has the burden of establishing that his due
process rights were violated.71
Because the particular situation dictates what
procedural due process protections are required, 72 it is
Barnette’s burden to demonstrate that he is entitled
to the same procedural safeguards as those required
in Jones. Yet, the record is void of any evidence
regarding the burden on the government, and
Barnette has presented no evidence demonstrating
his property was anything more than a vacant lot.
(iv) Reasonable Steps
Based on the specific facts presented in Jones, the
Court suggested sending a letter by regular mail so
that a signature was not required, posting notice on
the front door of the property, or addressing mail to
“occupant” would be reasonable. These additional
steps were deemed reasonable because Arkansas’
Id., 547 U.S. at 229 (quoting Mullane, supra note 29).
See Stenger v. Department of Motor Vehicles, 274 Neb. 819, 743
N.W.2d 758 (2008).
72 See Mathews, supra note 62.
70
71

Appendix A-25
statutes already required a homeowner to be served
by personal service if certified mail is returned. And,
the property at issue was an occupied home.
Balancing the State’s interest in efficiency against
the owner’s property interest in his home, the Court
in Jones rejected as unreasonable the suggestion that
the government should conduct a search for the
owner’s new address in the local phonebook and
government records. The Court determined the
government was not required to go that far because
such a requirement would impose too great a burden.
The Court also noted that “‘[i]t is not [the Court’s]
responsibility to prescribe the form of service that the
[government] should adopt.’” 73
(v) Desirous of Actually Informing
In Jones, the Court explained that “‘when notice
is a person’s due . . . [t]he means employed must be
such as one desirous of actually informing the
absentee might reasonably adopt to accomplish it.’” 74
Thus, if the return of the notice as unclaimed is new
knowledge indicating the chosen method of service is
not “desirous of actually informing,” additional
reasonable steps are required—but only if such steps
are practicable. 75
In the present case, Pontian’s knowledge that the
certified letter had been returned as unclaimed did
not indicate that its method of service was not
desirous of actually informing Barnette. Pontian sent
notice to Barnette by certified mail, return receipt
requested, to the address where the property tax
73 Jones, supra note 32, 547 U.S. at 238 (quoting Greene v.
Lindsey, 456 U.S. 444, 102 S. Ct. 1874, 72 L. Ed. 2d 249 (1982)).
74 Id. (quoting Mullane, supra note 29).
75 Id.

Appendix A-26
statement was mailed, as required by § 77-1832. Prior
to returning the notice as unclaimed, the post office
had made three attempts to deliver the notice. After it
was returned as unclaimed, Pontian proceeded to
notice by publication in a Sarpy County newspaper, as
permitted by § 77-1834.
(vi) Practicalities and
Peculiarities of Case
Jones does not preclude the conclusion we reach
today. This case involves substantially different facts
and circumstances from those presented in Jones.
Other states have rejected the argument that
additional steps are required after notice sent to a
property owner’s last known and actual address was
returned as unclaimed or where property owners have
failed to present evidence that they were either not
home or not available to claim the notice.
The North Carolina Court of Appeals rejected a
property owner’s argument that Jones required
additional steps after a notice was returned as
unclaimed and held that the notice sent to the
property owner’s last known and actual address
complied with due process requirements. 76 The
Supreme Court of New York, Appellate Division,
recognized that when mailings had been sent to the
property owners’ current and correct addresses but
returned as unclaimed, the lack of evidence indicating
property owners were not home or legitimately
unavailable to sign for the letter was “‘unique
information about [the] intended recipient[s]’” to be

St. Regis of Onslow County v. Johnson, 191 N.C. App. 516, 663
S.E.2d 908 (2008).

76

Appendix A-27
taken into account when determining whether notice
was reasonable. 77
Addressing the sufficiency of notice in a breach of
contract action, the Pennsylvania Court of Common
Pleas has also held that “[w]hen a letter is returned as
‘refused’ or ‘unclaimed,’ the notice is sufficient if it is
apparent that the address was valid and could be
located by the postal office.” 78 In Mikhaylov v. U.S., 79
the U.S. District Court for the Eastern District of New
York similarly recognized that in the context of asset
forfeiture, “[a] written notice sent, via certified mail,
to any known addresses, combined with published
notices, ordinarily satisfies the Mullane standard.”
The court stated:
The only arguable exceptions are:
where the government knows or should
know that the written notice will not
reach the intended recipient (e.g., the
written
notice
is
returned
as
undeliverable), and it can obtain the
recipient’s correct address internally
(e.g., the recipient is already in the
government’s custody). . . . Or, where the
government knows or should know that
the intended recipient will not
understand the written notice (e.g., the
recipient lacks the mental capacity). 80

77 Temple Bnai Shalom of Great Neck v. Village of Great Neck
Estates, 32 A.D.3d 391, 393, 820 N.Y.S.2d 104, 106 (2006)
(quoting Jones, supra note 32).
78 Masergy Communications, Inc. v. Atris, Inc., No. 06-24948,
2007 WL 5479856 (Pa. Com. Pl. Oct. 4, 2007).
79 Mikhaylov v. U.S., 29 F. Supp. 3d 260, 267 (E.D.N.Y. 2014).
80 Id. at 267-68.

Appendix A-28
Here, Barnette’s actual address was known and
the notice was correctly sent to that address. In
contrast to Jones, 81 the property at issue in this case
was not Barnette’s home. Barnette’s home is in
Council Bluffs, Iowa, where he has continuously
resided throughout the entire tax sale process and
admits to having received tax notices for the property
at issue there. Because Pontian’s notice was sent to
Barnette’s actual address, the only new information
revealed by the return of the letter was that either
(1) Barnette had not been home during the attempts
at delivery, and then failed to retrieve the letter from
the post office, or (2) Barnette had been avoiding
service.
The dissent cites two cases in support of its
position. However, there is a distinct difference
between the factual circumstances in those cases and
the one before us today. In each case, the property
owner had denied having actual notice of the pending
proceedings. Moreover, in Schlereth v. Hardy, 82 the
court found that the property owner “was not offered
a certified letter by the postal worker that she refused
to accept—she simply failed to retrieve a letter, the
substance of which was unknown to her.”
Again, it is Barnette’s burden to establish
issuance of the tax deed was unconstitutional.83
However, he has not offered any evidence to show that
the notice was not reasonably calculated to apprise
him of Pontian’s intent to apply for a tax deed. During
oral argument, Barnette’s counsel admitted there was
no evidence in the record regarding why Barnette had
not accepted the letter. Barnette has not alleged that
he was unaware of the attempts at service or that he
Jones, supra note 32.
Schlereth v. Hardy, 280 S.W.3d 47, 52 n.4 (Mo. 2009).
83 See Stenger, supra note 71.
81
82

Appendix A-29
was unavailable to claim the letter. Barnette has also
not alleged a lack of actual knowledge of Pontian’s
intent to apply for a tax deed. This differs from the
property owner in Jones who had demonstrated that
he had only learned of the pendency of the proceedings
after his home had already been sold. 84
Sending notice to Barnette at his actual residence
demonstrates Pontian was desirous of actually
informing Barnette of its intention to apply for a tax
deed. Accordingly, we hold that the notice was
constitutionally sufficient under the standard
articulated in Jones.
The dissent correctly asserts that sending
Barnette notice by regular mail would have imposed
little burden on Pontian. However, regardless of the
level of burden imposed, Pontian was not obligated to
do so. The Court of Appeals of New York rejected a
similar argument when holding that the government
was not required to take additional steps under Jones
after tax bills and a notice of foreclosure proceeding
were sent by regular mail, but returned as
undeliverable because the owners had not shown that
there were any steps that would have yielded the
owners’ new address. 85 Here, the burden lies on
Barnette, and he has presented no evidence to show
that there were additional reasonable steps and that
these additional steps would be practicable.
Even assuming the dissent’s interpretation of
Jones is correct, and the return of notice as unclaimed
independently triggers an obligation to take
additional reasonable steps when notice is sent to the
property owner’s actual residence, these steps are still
See Jones, supra note 32.
Mac Naughton v. Warren County, 20 N.Y.3d 252, 982 N.E.2d
1237, 959 N.Y.S.2d 104 (2012).
84
85

Appendix A-30
not constitutionally required unless it is “practicable
to do so.”86 The Oxford English Dictionary defines
“practicable” as “[a]ble to be done or put into practice
successfully; feasible; able to be used; useful,
practical, effective.”87
The U.S. Court of Appeals for the Seventh Circuit
has recognized: “The Constitution does not require
that an effort to give notice succeed. . . . If it did, then
people could evade knowledge, and avoid
responsibility for their conduct, by burning notices on
receipt—or just leaving them unopened ” 88
In this case, regular mail (or mail addressed to
“occupant”) would not likely have been useful or
effective, especially given the fact Barnette has not
alleged that he was unaware of the delivery attempts
or that he was unavailable to claim the letter.
To the extent the dissent discusses Neb. Rev. Stat.
§ 25-520.01 (Reissue 2016) and its requirement that
along with publication, parties must mail a copy of the
published notice to all parties having a direct legal
interest in the action when the party’s name and
address are known, the Legislature has not included
the same requirement when publishing under § 771834. While the inclusion of such a requirement may
be appropriate, its absence does not affect the
constitutionality of the notice provided in the case
before us.

See Jones, supra note 32, 547 U.S. at 234.
Oxford
English
Dictionary
Online,
http://www.oed.com/view/Entry/149217 (last visited Apr. 4,
2020).
88 Ho v. Donovan, 569 F.3d 677, 680 (7th Cir. 2009) (citing
Dusenbery, supra note 42).
86

87 “Practicable,”

Appendix A-31
Under the totality of circumstances presented,
Pontian’s attempt at notice was “‘desirous of actually
informing’” Barnette of its intent to apply for a tax
deed. 89 Pontian complied with §§ 77-1832 and 77-1834
and was not required to publish notice anywhere other
than Sarpy County. Accordingly, we hold that the
notice was constitutionally sufficient.
There is no merit to Barnette’s third and fourth
assignments of error.
4. ACTION TO QUIET TITLE
In his fifth assignment of error, Barnette
reasserts his claims of defective notice and service and
argues the statutory time period for obtaining a deed
to the property has expired. As set forth above,
Pontian’s notice of its intent to apply for a tax deed
was not defective. This argument is meritless.
VI. CONCLUSION
Pontian complied with the statutory notice
requirements for obtaining a tax deed. Because the
requirements are reasonably calculated to apprise a
property owner of a tax certificate holder’s intent to
apply for a tax deed, they are constitutionally
sufficient. Barnette has failed to meet his burden of
establishing the tax deed is invalid. The judgment of
the district court is affirmed.
Affirmed.
CASSEL, J., concurring.
I agree with the court that HBI correctly followed
Neb. Rev. Stat. § 77-1831 (Reissue 2009) regarding
89

See Jones, supra note 32, 547 U.S. at 230.

Appendix A-32
notice that must be given upon tax deed issuance. And
I agree that under the circumstances here, there was
no due process violation.
But I write separately to suggest that the
Legislature may wish to follow the example of Neb.
Rev. Stat. § 25-520.01 (Reissue 2016), which was
adopted in response to Mullane v. Central Hanover Tr.
Co. 1 The Legislature may find it prudent to amend
Neb. Rev. Stat. § 77-1835 (Supp. 2019) to provide that
where notice by publication is given, the party giving
such notice shall send by U.S. mail a copy of the first
such published notice to the record owner of the
property.
PAPIK, J., dissenting.
“Before a State may take property and sell it for
unpaid taxes, the Due Process Clause of the
Fourteenth Amendment requires the government to
provide the owner ‘notice and opportunity for hearing
appropriate to the nature of the case.’” Jones v.
Flowers, 547 U.S. 220, 223, 126 S. Ct. 1708, 164 L. Ed.
2d 415 (2006), quoting Mullane v. Central Hanover Tr.
Co., 339 U.S. 306, 70 S. Ct. 652, 94 L. Ed. 865 (1950).
I believe that under the U.S. Supreme Court’s opinion
in
Jones,
Pontian
provided
constitutionally
inadequate notice of its intent to apply for a
treasurer’s deed for Barnette’s property. While the
majority finds this case distinguishable from Jones, I
do not.
In this dissent, I will first explain how I read
Jones and how I understand it to apply here. I will

Mullane v. Central Hanover Tr. Co., 339 U.S. 306, 70 S. Ct. 652,
94 L. Ed. 865 (1950).

1

Appendix A-33
then address the majority’s position that my reading
of Jones is incorrect.
Jones v. Flowers and
Unclaimed Certified Mail.
As the majority explains, Jones involved a fact
pattern similar to the one before us. After the
longtime owner of a house separated from his wife and
moved out, taxes on the house were not paid. A
government official later sent notice of the
delinquency and information about how to redeem the
property by certified mail to the address where the
owner no longer lived. It was returned unclaimed. Two
years later, the government official published a notice
of public sale of the house in a local newspaper. When
a purchase offer was received for the home, the
government official sent another certified letter,
warning that the house would be sold if the delinquent
taxes were not paid. Once again, the certified mail was
returned unclaimed. The owner did not learn of the
sale until the purchaser had an unlawful detainer
notice sent to the property, which was served on the
owner’s daughter.
The owner’s lawsuit alleging that his house was
being taken without due process eventually reached
the U.S. Supreme Court. In an opinion authored by
Chief Justice Roberts, the Court first acknowledged
that due process does not require actual notice before
the government may take property and that in prior
cases, it had deemed notice constitutionally adequate
if it was reasonably calculated to reach the intended
recipient when sent. The Court also noted its
precedent, including Dusenbery v. United States, 534
U.S. 161, 122 S. Ct. 694, 151 L. Ed. 2d 597 (2002), and
Mullane, supra, generally permitting service by mail.

Appendix A-34
The Court explained, however, that Jones
presented a “new wrinkle”: whether due process
requires additional steps “when the government
becomes aware prior to the taking that its attempt at
notice has failed.” 547 U.S. at 227. The Court
concluded that reasonable followup measures are
required in such circumstances, reasoning that no one
who “actually desired to inform a real property owner
of an impending tax sale of a house he owns would do
nothing when a certified letter sent to the owner is
returned unclaimed.” Jones v. Flowers, 547 U.S. 220,
229, 126 S. Ct. 1708, 164 L. Ed. 2d 415 (2006).
The Court went on to conclude that there were
reasonable, additional steps the government official
could have taken, including resending the notice by
regular mail or posting notice on the front door. The
Court explained that such steps would increase the
likelihood of a property owner receiving actual notice.
Finally, the Court concluded that following up by
publication was constitutionally inadequate.
I agree with Barnette that under Jones, the notice
here was constitutionally inadequate. The notice sent
by certified mail was returned unclaimed. I read Jones
to tell us rather plainly that in that circumstance, the
State must take additional, reasonable steps to
provide notice if it is practicable to do so. 547 U.S. at
225 (“[w]e hold that when mailed notice of a tax sale
is returned unclaimed, the State must take additional
reasonable steps to attempt to provide notice to the
property owner before selling his property, if it is
practicable to do so”).
Because I believe this case is controlled by Jones,
I would go on to consider, as the Court did in Jones,
whether Pontian took additional, reasonable
measures to notify Barnette after the certified mail

Appendix A-35
went unclaimed. It quickly becomes clear to me it did
not.
As noted above, Jones concluded there were other,
reasonable steps that could have been taken after the
attempt to provide notice by certified mail failed. The
Court mentioned resending the notice by regular mail
or posting notice on the front door. The Court
explained that such steps would increase the
likelihood of the property owner receiving actual
notice whether the property owner had moved or had
simply not retrieved the certified mail.
I see no reason why those reasonable, additional
steps could not have been taken here. Pontian, for
example, could have followed the normal practice in
Nebraska of sending the published notice to those
with an interest in a proceeding by regular mail at the
same time the notice was published. In most instances
in which a party is allowed to provide notice by
publication, Nebraska law requires that, along with
publication, the party mail a copy of the published
notice to “each and every party appearing to have a
direct legal interest in such action or proceeding
whose name and post office address are known to
him.” Neb. Rev. Stat. § 25-520.01 (Reissue 2016). A
mailing of published notice does not appear to have
been statutorily required in this unique context, see
Neb. Rev. Stat. § 25-520.02 (Reissue 2016), but
sending the published notice by regular mail would
have required little more of Pontian and would have
eliminated any argument that it provided
constitutionally inadequate notice under Jones. As the
majority acknowledges, sending Barnette notice by
regular mail after the certified mail went unclaimed
would have imposed little burden on Pontian. Pontian,
however, did nothing except publish notice after the
certified mail was returned unclaimed. In Jones,
publication was deemed to be inadequate. See Jones

Appendix A-36
v. Flowers, 547 U.S. 220, 126 S. Ct. 1708, 164 L. Ed.
2d 415 (2006).
Because Pontian did not, after the certified mail
was returned unclaimed, take reasonable, additional
steps to attempt to notify Barnette when it was
practicable to do so, I do not believe it provided
constitutionally adequate notice. The majority,
however, finds the notice was adequate based on a
different reading of Jones. I explain why I disagree
with that reading below.
Majority’s Understanding of Jones.
The majority concludes that the notice sent by
certified mail that was returned unclaimed was
sufficient to satisfy due process notwithstanding
Jones. As I understand the majority opinion, it
concludes that Jones does not apply in this
circumstance because it is not clear that the piece of
property being taken and sold by the government
includes a house, because the certified mail that went
unclaimed was addressed to the place where Barnette
lived, and because it finds that the additional steps
discussed in Jones likely would have failed.
I do not read the application of Jones to turn on
the facts identified by the majority. Take first, the
majority’s determination that Jones has no bearing
here because Jones involved the taking of a house and,
as the majority puts it, nothing in the record
demonstrates the property being taken here “was
anything more than a vacant lot.” The majority
identifies a number of occasions in which the U.S.
Supreme Court in Jones referred to the fact that the
property being sold was a house and that such an
action is an important and extraordinary act. For
multiple reasons, I understand these references to
emphasize the significance and irreversibility of the

Appendix A-37
government’s taking property from its owner and
selling it, not to, in the majority’s words, attribute
“special importance” to the fact that the property
being sold was a house.
Not only is that, in my view, a more natural
reading, in many other places in Jones, the U.S.
Supreme Court frames its analysis in terms of the
taking of property in general. The Court stated that it
granted certiorari “to determine whether, when notice
of a tax sale is mailed to the owner and returned
undelivered, the government must take additional
reasonable steps to provide notice before taking the
owner’s property.” Jones, 547 U.S. at 223 (emphasis
supplied). It further explained that it took the case “to
resolve a conflict among the Circuits and State
Supreme Courts concerning whether the Due Process
Clause requires the government to take additional
reasonable steps to notify a property owner when
notice of a tax sale is returned undelivered.” Id., 547
U.S. at 225 (emphasis supplied). And in stating its
holding, the Court said, “We hold that when mailed
notice of a tax sale is returned unclaimed, the State
must take additional reasonable steps to attempt to
provide notice to the property owner before selling his
property, if it is practicable to do so.” Jones v. Flowers,
547 U.S. 220, 225, 126 S. Ct. 1708, 164 L. Ed. 2d 415
(2006) (emphasis supplied).
I would also note that I find the conclusions the
majority draws from a house being at issue in Jones
difficult to square with the facts of Jones itself. As the
majority emphasizes, the property owner in Jones did
not actually reside at the house that was being taken
and sold by the government. The interest of the
property owner in Jones was thus not that of someone
whose residence was being sold out from under him.
And while a nonresident owner undoubtedly has a
significant interest in a house he or she owns, I do not

Appendix A-38
see how such an interest would, for due process
purposes, be more significant than a property owner’s
interest in, say, a building used for business purposes,
farmland, or any other piece of real property, even “a
vacant lot.”
Neither am I persuaded by the majority’s
conclusion that Jones does not apply when, as here,
the unclaimed certified mail was sent to the address
at which the property owner lives. I concede that, at
least at first blush, this distinction identified by the
majority seems meaningful. A compelling argument
can certainly be made that a person like the
homeowner in Jones who never has the opportunity to
accept certified mail is more deserving of additional
attempts at notice than Barnette who, for reasons that
are not clear, did not sign for certified mail sent to the
home where he resides. One might add to that
argument that a finding that Barnette was provided
with inadequate notice could create an incentive for
delinquent taxpayers to evade certified mail. See
Jones, 547 U.S. at 248 (Thomas, J., dissenting) (“[t]he
meaning of the Constitution should not turn on the
antics of tax evaders and scofflaws”). But as
compelling as I might find the policy arguments for
the majority’s position, I do not believe that Jones can
fairly be read to allow for it.
In holding that knowledge that notice has been
returned unclaimed requires the State to consider
additional action, Jones does not focus on the reason
that the certified mail went unclaimed. Its focus is
instead on the fact that the certified mail went
unclaimed. The Court concluded that because the
certified mail went unclaimed, the government official
knew the attempt to actually notify the homeowner
had failed and therefore, if practicable, additional
steps were required. See id., 547 U.S. at 225 (“when
mailed notice of a tax sale is returned unclaimed, the

Appendix A-39
State must take additional reasonable steps to
attempt to provide notice . . . if it is practicable to do
so”).
But not only does Jones not focus on the owner’s
living somewhere other than the address where the
certified mail was sent, it explicitly discusses the
possibility that certified mail might go unclaimed by a
person residing at the address where the certified
mail is sent. 547 U.S. at 234 (“[t]he return of the
certified letter marked ‘unclaimed’ meant either that
[the owner] still lived at [the address where the
certified mail was sent], but was not home when the
postman called and did not retrieve the letter at the
post office, or that [the owner] no longer resided at
that address”) (emphasis supplied). The opinion does
not, however, conclude that a person who does not
retrieve certified mail sent to his or her residence has
received constitutionally adequate notice. To the
contrary, it discusses how the required additional
attempts at providing notice such as resending the
notice by regular mail or posting notice on the front
door would address both the possibility that the
homeowner no longer lived at the address but also
that he “had simply not retrieved the certified letter.”
Jones v. Flowers, 547 U.S. 220, 235, 126 S. Ct. 1708,
164 L. Ed. 2d 415 (2006). For better or for worse, Jones
treats alike property owners who do not claim certified
mail because they have moved and property owners
who simply fail to retrieve certified mail—neither
receive notice when certified mail goes unclaimed and
the additional steps are aimed at providing notice to
both types of parties.
For this reason, I cannot agree with the majority
that Pontian’s attempt at notice was “desirous of
actually informing” Barnette of its intent to apply for
a tax deed. The majority focuses exclusively on
whether Pontian’s attempt to notify Barnette of an

Appendix A-40
impending tax sale was “desirous of actually
informing” when the certified mail was sent. Under
Jones, however, that is not the end of the inquiry, at
least when certified mail is returned unclaimed.
Under Jones, once certified mail is returned
unclaimed, it is not enough that the notice by certified
mail was “desirous of actually informing” when sent.
I also do not believe the majority is correct to
conclude that even if Jones applies, Pontian was not
required to take additional steps after the certified
mail went unclaimed. The majority concludes Pontian
was not required to do so because, it says, any
additional steps would not likely have succeeded
because there is nothing in the record that indicates
why the certified mail went unclaimed in the first
place. I do not believe that is relevant. When Jones
concluded that additional steps such as sending the
notice by regular mail or posting the notice on the
front door were reasonable and available, it did not do
so by considering whether those steps would have
provided notice to the property owner in the case
before it. It concluded that such steps were
“practicable” because they would “increase the
chances of actual notice” whether the property owner
had moved or had simply not retrieved the certified
mail sent to his home. Id., 547 U.S. at 234, 235. I do
not believe we can second-guess that determination
here.
Other Authority.
The majority also relies on a number of cases in
support of its more limited understanding of Jones.
Just as I disagree with the majority’s understanding
of Jones, I am not persuaded by its reliance on other
cases.

Appendix A-41
In my view, many of the cases cited by the
majority do not even speak to the issues at hand. For
example, the majority notes that in St. Regis of
Onslow County v. Johnson, 191 N.C. App. 516, 663
S.E.2d 908 (2008), the North Carolina Court of
Appeals rejected a property owner’s argument that
Jones required additional steps after a notice was
returned unclaimed. That is true enough, but the
court did not do so for any of the reasons the majority
relies on here. The court concluded that notice was
sufficient because in that case the notices were
returned unclaimed after the property had been sold
and thus the obligation to take additional steps to
effect notice was never triggered.
The majority also cites language from a
Pennsylvania trial court decision to the effect that
even if letters are returned unclaimed, the notice is
sufficient if sent to a valid address. See Masergy
Communications, Inc. v. Atris, Inc., No. 06-24948,
2007 WL 5479856 (Pa. Com. Pl. Oct. 4, 2007). In
support of that proposition, however, the court cited
cases that predated Jones. The court only mentioned
Jones in a footnote, also distinguishing it on grounds
not relied on by the majority here.
I also cannot agree that Mikhaylov v. U.S., 29
F. Supp. 3d 260 (E.D.N.Y. 2014), supports the
majority’s position. At issue in that case was whether
the government provided notice consistent with due
process before seizing property in a drug forfeiture
case. The government sent notice of the forfeiture to
the property owner’s last known address by certified
mail. The property owner had moved away, but
someone else signed for it. The property owner argued
that he was entitled to actual notice, and the court
disagreed. Because the notice was not returned
unclaimed, the court’s opinion, unsurprisingly, does
not discuss Jones.

Appendix A-42
Despite the absence of any mention of Jones in
Mikhaylov, the majority splices together two quotes
from the opinion and appears to suggest those quotes
support its position. The first quote is a recitation of a
principle of blackletter law with which neither I nor
anyone else could quibble: “A written notice sent, via
certified mail, to any known addresses, combined with
published notices, ordinarily satisfies the Mullane
standard.” Mikhaylov, 29 F. Supp. 3d at 267
(emphasis supplied). In the next sentence of the
majority opinion, the majority quotes from language
appearing two paragraphs later in Mikhaylov
discussing “[t]he only arguable exceptions.” Id. To the
extent the majority intends to suggest that Mikhaylov
was articulating “[t]he only arguable exceptions” to its
earlier statement that certified mail sent to a known
address ordinarily satisfies Mullane, it is mistaken.
The two paragraphs in between the portions quoted
by the majority make clear that the court was
discussing “arguable exceptions” to the rule that
actual notice is not required to satisfy due process.
Mikhaylov, 29 F. Supp. 3d at 267. Jones did not
require actual notice, and no one is suggesting that
actual notice is required here.
The majority does cite two cases, Temple Bnai
Shalom of Great Neck v. Village of Great Neck Estates,
32 A.D.3d 391, 820 N.Y.S.2d 104 (2006), and Mac
Naughton v. Warren County, 20 N.Y.3d 252, 982
N.E.2d 1237, 959 N.Y.S.2d 104 (2012), that appear to
align with the majority’s understanding of Jones to
some degree. But Temple Bnai Shalom of Great Neck
declined to apply Jones based, in part, upon the reason
certified mail went unclaimed and Mac Naughton
declined to do so based upon a determination that
additional efforts would not have resulted in notifying
the owners in the case before it. As I have already
explained, I do not believe either approach is
consistent with Jones.

Appendix A-43
While on the subject of authority, I note that
others have read Jones as I do. In Schlereth v. Hardy,
280 S.W.3d 47 (Mo. 2009), the Missouri Supreme
Court confronted a case like ours. In that case,
certified mail was sent to the delinquent taxpayer’s
residence; the taxpayer received notifications of the
attempt to deliver, but she failed to pick it up; and it
was returned unclaimed. The person seeking to buy
the delinquent taxpayer’s home did not provide
additional forms of notice. The Missouri Supreme
Court unanimously held that, under Jones, the notice
did not comply with due process. It concluded that
after the certified mail was returned unclaimed, the
sender was required to take reasonable, additional
measures as articulated in Jones. With respect to the
fact that the delinquent taxpayer received notification
of the certified mail and failed to retrieve it, the court
stated: “Jones did not concern itself with why the
addressee failed to claim the certified letter. In fact,
the Supreme Court allowed for the possibility that the
addressee, like [the delinquent taxpayer] simply
would ignore the requests to pick up the certified
letter.” Schlereth, 280 S.W.3d at 51.
Similarly, in VanHorn v. Florida, 677 F. Supp. 2d
1288 (M.D. Fla. 2009), a federal district court
concluded that, under Jones, the government was
required to attempt additional reasonable steps at
service, if practicable, even though the certified mail
that went unclaimed was sent to the address where
the property owner resided. The court pointed to the
language in Jones discussed above that the
government was required to “account not only for the
possibility that (as in [Jones]) an unclaimed letter was
delivered to an address at which the property owner
did not reside but also ‘that he had simply not
retrieved the certified letter.’” VanHorn, 677 F. Supp.
2d at 1297, quoting Jones v. Flowers, 547 U.S. 220,
126 S. Ct. 1708, 164 L. Ed. 2d 415 (2006).

Appendix A-44
Conclusion.
In closing, I respond to the majority’s assertion
that I read Jones to create a new rule when the Jones
Court disavowed doing so. In fact, Jones did not
altogether disavow the creation of a new rule; the
Court said it was not creating a rule that “is contrary
to Dusenbery and a significant departure from
Mullane.” 547 U.S. at 238. The dissent in Jones felt
that this was not an accurate account of the opinion.
547 U.S. at 244 (Thomas, J., dissenting) (“[t]he
majority’s new rule is contrary to Dusenbery and a
significant departure from Mullane”). And, as a
matter of description, perhaps that is debatable.
But regardless of how Jones characterized its
holding, we are bound to follow it. See, e.g., State v.
Thieszen, 295 Neb. 293, 297, 887 N.W.2d 871, 875
(2016) (“[u]pon questions involving the interpretation
of the U.S. Constitution, the decision of the U.S.
Supreme Court is the supreme law, by which state
courts are bound”). Respectfully, I do not believe the
majority opinion does. For that reason, I dissent.

Appendix B-1
Filed in Sarpy District Court
*** EFILED **
Case Number: D59CI170001038
Transaction ID: 0008040720
Date: 01/15/2019 12:00:37 PM CST
IN THE DISTRICT COURT OF
SARPY COUNTY, NEBRASKA
)
)
Plaintiff,
)
)
v.
)
WALTER D. BARNETTE;
)
EDWARD S. SWANEY, AS
)
BENEFICIARY; JIM L. KUHN,
)
AS TRUSTEE; JOHN DOE,
)
REAL NAME UNKNOWN;
MARY DOE, REAL NAME
)
UNKNOWN; AND ALL
)
PERSONS HAVING OR
)
CLAIMING ANY INTEREST
)
IN LOT 2, SWANEY’S
)
ADDITION REPLAT 1, AN
ADDITION TO THE CITY OF )
BELLEVUE, AS SURVEYED, )
PLATTED AND RECORDED, )
SARPY COUNTY, NEBRASKA,
)
)
Defendants.

HBI, L.L.C.,

)
DOCKET
CI 17 PAGE
1038
OPINION
AND
ORDER

On January 8, 2019, the above-captioned matter
came on for hearing on Plaintiff’s Amended Second
Motion for Summary Judgment and Defendant
Walter D. Barnette’s (“Barnette”) Third Motion for
Summary Judgment. Plaintiff appeared by counsel,
Gretchen McGill and Jeffrey Blumel. Defendant

Appendix B-2
Barnette appeared by counsel, Edward Noethe.
Offered and received on Plaintiff’s summary judgment
motion were Exhibits 1, 2, and 4. In addition, the
Court took judicial notice of the Order of Dismissal of
August 8, 2016 in CR 16-515. Offered and received on
Defendant Barnette’s summary judgment motion
were Exhibits 3 and 4. The parties were given an
opportunity to present arguments and briefs. At the
conclusion of the hearing, the motions were deemed
submitted, taken under advisement and now come on
for decision.
Plaintiff filed its Complaint in this matter on
June 13, 2017, seeking to quiet title to the following
real estate located in Sarpy County, Nebraska:
Lot 2, Swaney’s Addition Replat 1, an
Addition to the City of Bellevue, as
surveyed, platted and recorded, Sarpy
County, Nebraska (the “Real Estate”).
It is Plaintiff’s contention that on March 5, 2013, at a
public tax sale, Sarpy County Treasurer’s Certificate
of Tax Sale No. 12308 (the “Certificate”) was sold to
Pontian Land Holdings, LLC (“Pontian”) for the
delinquent taxes on the Real Estate for the years 2010
and 2011. [Of note: the Real Estate was transferred to
HBI on or about November 4, 2016, and thereafter,
HBI became the substitute Plaintiff in this matter.]
Plaintiff contends that under Nebraska law, any real
property on which taxes have not been paid in full by
the first Monday of March can be sold by the county
treasurer for the amount of the taxes due, plus
interest and costs. See, Neb. Rev. Stat. § 77-1801, et
seq. Thus, Plaintiff asserts that after purchasing the
Certificate and waiting the statutorily prescribed
three years, it served a Notice of Application for Tax
Deed (the “Notice”) dated March 30, 2016, upon each

Appendix B-3
person required by statute, which also included
Defendant Barnette.
Defendant Barnette filed his Answer and
Counterclaim on July 12, 2017, wherein he asserted
causes of action for quiet title and declaratory
judgment. It is Defendant Barnette’s intention to
quiet title in his own name.
Thereafter, on October 31, 2017, Defendant
Barnette filed his first Motion for Summary Judgment
alleging that no genuine issues of material fact
remained and that he was entitled to judgment as a
matter of law. Said motion was withdrawn by
Defendant Barnette on December 7, 2017.
On January 30, 2018, Plaintiff filed a Motion for
Summary Judgment. On February 14, 2018,
Defendant Barnette filed a Second Motion for
Summary Judgment. Each party alleged that no
genuine issues of material fact remained and that
each were entitled to judgment as a matter of law. By
way of Opinion and Order dated May 2, 2018, the
Court denied both motions for summary judgment
finding that genuine issues of material fact did still
remain.
At this juncture, Plaintiff has filed an Amended
Second Motion for Summary Judgment, and
Defendant Barnette has filed a Third Motion for
Summary Judgment. Once again, each party alleges
that no genuine issues of material fact remain which
preclude judgment as a matter of law in their favor.
A court should grant summary judgment when
the pleadings and evidence admitted show that no
genuine issue exists regarding any material fact or the
ultimate inferences that may be drawn from those
facts and that the moving party is entitled to

Appendix B-4
judgment as a matter of law. Lesiak v. Central Valley
Ag Co-op., Inc., 283 Neb. 103, 808 N.W.2d 67 (2012);
Golden v. Union Pacific R. Co., 282 Neb. 486, 804
N.W.2d 31 (2011). In reviewing a summary judgment,
a court views the evidence in a light most favorable to
the party against whom the judgment is granted and
gives such party the benefit of all reasonable
inferences deducible from the evidence. Id.
A party moving for summary judgment must
make a prima facie case by producing enough evidence
to demonstrate that the movant is entitled to
judgment if the evidence were uncontroverted at trial.
McFadden Ranch, Inc. v. McFadden, 19 Neb.App. 366,
807 N.W.2d 785 (2011); Chicago Lumber Co. Of
Omaha v. Selvera, 282 Neb. 12, 809 N.W.2d 469
(2011); BSB Const., Inc. v. Pinnacle Bank, 278 Neb.
1027, 776 N.W.2d 188 (2009). Once the moving party
makes a prima facie case, the burden to produce
evidence showing the existence of a genuine issue of
material fact that prevents judgment as a matter of
law shifts to the party opposing the motion. Id.
In Nebraska, there are two processes through
which the holder of a tax sale certificate can obtain a
deed to the property purchased at a tax sale. First,
under a procedure commonly referred to as the “tax
deed” procedure, the holder of the tax sale certificate
can obtain a tax deed from the county treasurer after
giving proper notice. See, Neb. Rev. Stat. § 77-1831, et
seq. Second, under a procedure commonly referred to
as “judicial foreclosure”, the holder can foreclose upon
the tax lien in a court proceeding and compel the sale
of the property. See, Neb. Rev. Stat. § 77-1902, et seq.
In the instant matter, the evidence reflects that
after purchasing the Certificate and waiting the
statutorily required three years, Plaintiff served a
Notice of Application for Treasurer’s Deed dated

Appendix B-5
March 30, 2016, upon each person required by statute.
See, Exhibit 2. Plaintiff sent the Notice to
Defendant/Counter-Claimant Barnette by certified
mail, return receipt requested, to the address where
the property tax statement is mailed, which was also
Defendant Barnette’s residence. See, Exhibit 2. The
Notice was returned as “unclaimed”. Accordingly,
Plaintiff published the Notice as allowed by Nebraska
law. Thereafter, Plaintiff filed its application for a
Treasurer’s Deed with the Sarpy County Treasurer on
August 18, 2016, and obtained a Treasurer’s Tax Deed
dated August 29, 2016 (the “Tax Deed”) conveying all
right, title, and interest in the Real Estate to Plaintiff.
See, Exhibit 1.
Thereafter, on June 13, 2017, Plaintiff filed a
Complaint seeking to quiet title to the Real Estate in
its name. Defendant Barnette answered and filed a
counterclaim to quiet title. The basis of Defendant
Barnette’s summary judgment motion is that the
Notice and manner of service of the Notice by Plaintiff
was defective and that the service by publication
statutes in Nebraska are unconstitutional. To the
contrary, Plaintiff asserts that it satisfied the due
process requirements under the Constitution and
Nebraska law, and that Defendant Barnette’s third
summary judgment motion must be denied.
After considering the evidence properly admitted
at the summary judgment hearing, as well as the
arguments advanced by the parties, the Court now
finds that summary judgment is appropriate in
Plaintiff’s favor as no genuine issues of material fact
remain. Moreover, the Court finds that Defendant
Barnette’s third summary judgment motion must be
denied.
In making its findings, the Court has reviewed
Wisner v. Vandelay Investments, 300 Neb. 825, __

Appendix B-6
N.W.2d __ (August 24, 2018) where the Nebraska
Supreme Court discussed the proper procedure for
complying with the statutory notice requirements
before applying for a tax deed. In Wisner, it was
argued that the proof of publication did not comply
with Neb. Rev. Stat. § 77-1835 because it did not say
the Courier-Times newspaper was in general
circulation in the county and because evidence was
offered that the newspaper was not, in fact, in
circulation throughout Lincoln County. Id.
The relevant statutory language provides the
following with respect to notice by publication. Section
77-1834 states:
If the person in whose name the title to
the real property appears of record in the
office of the register of deeds in the
county or if the encumbrancer in whose
name an encumbrance on the real
property appears of record in the office of
the register of deeds in the county
cannot, upon diligent inquiry, be found,
the purchaser or his or her assignee shall
publish the notice in some newspaper
published in the county and having a
general circulation in the county or, if no
newspaper is printed in the county, then
in a newspaper published in this state
nearest to the county in which the real
property is situated.
(Emphasis added). Further, § 77-1835 provides the
following:
The notice provided by section 77-1834
shall be inserted three consecutive
weeks, the last time not less than three
months before applying for the tax deed.

Appendix B-7
Proof of publication shall be made by
filing in the county treasurer’s office the
affidavit of the publisher, manager, or
other employee of such newspaper, that
to his or her personal knowledge, the
notice was published for the time and in
the manner provided in this section,
setting out a copy of the notice and the
date upon which the same was
published. The purchaser or assignee
shall also file an affidavit in the office
that a title search was conducted to
determine those persons entitled to
notice pursuant to such section. The
affidavits shall be filed with the
application for the tax deed pursuant to
section 77-1837. The affidavits shall be
preserved as a part of the files of the
office. Any publisher, manager, or
employee of a newspaper knowingly or
negligently making a false affidavit
regarding any such matters shall be
guilty of perjury and shall be punished
accordingly. Section 25-520.01 does not
apply to publication of notice pursuant to
section 77-1834.
The Wisner Court held that there is no
requirement in the preceding sections that specific
language must appear in a proof of publication. Id.
Instead, the proof of publication must state only that
notice was published in the matter provided in § 771834. Id.
In the instant case, the evidence reflects that after
the Notice sent to Defendant Barnette was returned
as “unclaimed”, Plaintiff took the additional step of
publishing the Notice pursuant to Neb. Rev. Stat.
§ 77-1834. Defendant Barnette argues that because

Appendix B-8
Plaintiff knew that he lived in Pottawattamie County
and the Notice was published in Sarpy County, the
Notice given by Plaintiff violates the due process
clause of the United States Constitution and the
Nebraska Constitution. “The burden of proving a
statute is unconstitutional is on the party attacking
the validity of a statute, and unconstitutionality must
be clearly established before a statute will be declared
void.” Yant v. City of Grand Island, 279 Neb. 935, 784
N.W.2d 101 (2010). Further, when the Notice was
returned as unclaimed, Plaintiff took the additional
step of publishing notice pursuant to Neb. Rev. Stat.
§ 77-1834 which indicates that notice shall be
published “where the real property is situated.” In the
instant matter, the real property in question is
situated in Sarpy County, Nebraska.
Accordingly, based on the aforementioned
discussion, the Court finds that the notice procedures
followed by Plaintiff in this case do not violate the due
process requirements of the United States
Constitution or the Nebraska Constitution. Further,
the Notice provided to Defendant Barnette was
sufficient and in compliance with Nebraska law. The
Tax Deed issued by Sarpy County is presumptive
evidence of proper notice, and Defendant Barnette has
not met his burden to overcome the presumption of
validity.
IT
IS
THEREFORE
ORDERED
AND
ADJUDGED that Plaintiff’s Amended Second Motion
for Summary Judgment is hereby granted, and the
relief prayed for in its Complaint is awarded in that
its title to the Real Estate is quieted and confirmed.
IT IS FURTHER ORDERED that Defendant
Barnette’s Third Motion for Summary Judgment is
hereby denied.

Appendix B-9
Dated this 15 day of January, 2019.
BY THE COURT:
s/Martinez
District Judge

Appendix C-1
Filed Date: 10/22/2018
Transaction ID: 0007633782
IN THE DISTRICT COURT OF
SARPY COUNTY, NEBRASKA
PONTIAN LAND
HOLDINGS, LLC,
Plaintiff,

*

CASE ID:

*

CI 17 1038

*

vs.

*

WALTER D. BARNETTE;
EDWARD S. SWANEY, AS
BENEFICIARY; JIM L.
KUHN, AS TRUSTEE;
COUNTY OF SARPY,
NEBRASKA; JOHN DOE,
REAL NAME UNKNOWN;
MARY DOE, REAL NAME
UNKNOWN; AND ALL
PERSONS HAVING OR
CLAIMING ANY
INTEREST IN LOT 2,
SWANEY’S ADDITION
REPLAT I, AN ADDITION
TO THE CITY OF
BELLEVUE, AS
SURVEYED, PLATTED
AND RECORDED, SARPY
COUNTY, NEBRASKA,

*

Defendant.

*
*

AMENDED
ANSWER AND
AMENDED
COUNTERCLAIM

*
*
*
*
*
*
*
*
*
*
*
*

_________________________________________________

Appendix C-2
Comes now the Defendant Walter D. Barnette and
for his Amended Answer to the Amended Complaint
filed by the Plaintiff states and alleges as follows:
1. Denies paragraph 1 of Plaintiff’s Complaint
for lack of knowledge.
2.

Denies paragraph 2 of Plaintiff’s Complaint.

3. Admits Defendant Walter D. Barnette claims
to be the owner of the property described in Plaintiff’s
Complaint.
4. Neither admits nor denies paragraph 4 of the
Complaint as the allegations are not directed towards
this answering defendant.
5. Denies paragraph 5 of Plaintiff’s Complaint
for lack of knowledge.
6. Neither admits nor denies paragraph 6 of
Plaintiff’s Complaint as the allegations are not
directed towards this answering defendant.
7. Neither admits nor denies paragraph 7 of
Plaintiff’s Complaint for lack of knowledge.
8. Admits the Defendant Walter D. Barnette
claims title to the property at issue.
9. Denies each and every other allegation of
Plaintiff’s Complaint except those allegations which
constitute admissions against the Plaintiff interests.

Appendix C-3
10. Affirmatively alleges the Plaintiff filed a
foreclosure lawsuit against the Defendant Walter D.
Barnette in the District Court of Sarpy County,
Nebraska, Case No. D59C1260000515 on March 30,
2016. This election to proceed under Chapter 77,
Article 19 foreclosure bars a subsequent procedure
under Chapter 77, Article 18 upon which the Plaintiff
now claims an interest in the property at issue.
11. Affirmatively alleges the Plaintiff failed to
follow proper procedure under Chapter 77, Article 18,
including lack of required notice, and its claim is now
barred.
12. Affirmatively alleges the Plaintiff failed to
follow the required procedures of Neb. Rev. Stat. § 771834 and 77-1835 by failing to publish notice in the
county where the Defendant Walter D. Barnette could
be found. The Plaintiff had actual knowledge
Defendant Walter D. Barnette lived in Pottawattamie
County, Iowa.
13. Affirmatively alleges the statutory scheme for
notice under Neb. Rev. Stat. § 77-1832 through 771835 is unconstitutional, individually, and as read as
a whole, and violate the Defendant Walter D.
Barnette’s right to due process and equal protection
under the United States Constitution and the
Nebraska Const., art 1 § 3 and requests the court find
those laws to be unconstitutional.
14. Defendant has tendered payment of taxes due
to the county treasurer who rejected the tender.

Appendix C-4
15. The Defendant’s constitutional rights to due
process were violated by the taking.
16. The Attorney General of the State of
Nebraska has been served with a copy of the
proceeding and is entitled to be heard.
Wherefore, Defendant Walter D. Barnette prays
for a judgment in his favor and against the Plaintiff
Pontian Land Holdings, LLC and the court dismiss
the Complaint with costs taxed to the Plaintiff.
Counterclaim
County I – Quiet Title
17. Defendant and Counterclaimant Walter D.
Barnette is the owner of property described as:
Lot 2, Swaney’s Addition Replat I, an Addition to
the City of Bellevue, a surveyed, platted an recorded,
Sarpy County, Nebraska.
18. Plaintiff Pontian Land Holdings, LLC and,
Defendant Walter D. Barnette and Defendants
Edward S. Swaney, As Beneficiary; Jim L. Kuhn, A
Trustee; County of Sarpy, Nebraska; John Doe, Real
Name Unknown; Mary Doe, Real Name Unknown;
and All Persons Having or Claiming Any Interest in
Lot 2, Swaney’s Addition Replat I, An Addition To The
City of Bellevue, As Surveyed, Platted And Recorded,
Sarpy County, Nebraska, claim an interest, right, title
or lien to the above described property.

Appendix C-5
19. Plaintiff alleges to be the owner of said
property through a Treasurer’s Tax Deed.
20. Plaintiff elected to foreclose on the property
under Chapter 77, Article 19 and was thus barred
from proceeding under Chapter 77, Article 18.
21. Plaintiff also failed to follow proper
procedures, including notice, under Chapter 77,
Article 18.
22. The Plaintiff’s right to foreclosure is now
barred as such action must be brought within nine
months after the expiration of three years from the
date of sale under Neb. Rev. Stat. § 77-1902
23. The Defendants, Edward S. Swaney, as
Beneficiary, and Jim L. Kuhn, as Trustee, may claim
or appear to have some interest in, right or title to, or
lien upon the Real Estate by virtue of a Deed of Trust
securing the original amount of $17,000.00, dated
November 29, 2002, and filed for record on
December 6, 2002 at Instrument No. 2002-50577 in
the Office of the Register of Deeds of Sarpy County,
Nebraska.
24. The Defendant, Sarpy County, Nebraska,
may claim or appear to have some interest in, right or
title to, or lien upon the Real Estate by virtue of a
Special Assessment for Weed Complaint, levied
December 9, 2013 in the amount of $150.00 plus
interest, Special Assessment for Weed Complaint,
levied December 12, 2011 in the amount of $150.00
plus interest, and Special Assessment for Weed

Appendix C-6
Complaint, levied April 26, 2010 in the amount of
$150.00 plus interest.
25. The Defendants, John Doe, real name
unknown, and Mary Doe, real name unknown, may
claim or appear to have some interest in, right or title
to, or lien upon the real Estate or a part thereof.
26. Defendant Walter D. Barnette believes that
there may be persons other than those named
Defendants set forth herein who may claim an
interest in the real estate, which claims do not appear
of record. Defendant Walter D. Barnette, has not been
able to ascertain the names and whereabouts of such
person and, therefore, are designating such persons
as: All persons having or claiming any interest in Lot
2, Swaney’s Addition Replat I, an Addition to the City
of Bellevue, as surveyed, platted and recorded, Sarpy
County, Nebraska.
27. By virtue of the facts out above, there casts a
cloud upon the title of Walter D. Barnette, which
prevents the quiet use and enjoyment of the real
estate and which tends to impair and lessen the value
of the same, and will, unless Barnette’s title against
the Plaintiff and Co-Defendants is quieted and
established, cause Barnette irrevocable injury and
Barnette has no adequate remedy at law.
28. The defendant has tendered payment of the
taxes due to the county treasurer who has rejected the
tender.
29. The Plaintiff failed to follow the required
procedures in Neb. Rev. Stat. § 77-1834 and 77-1835

Appendix C-7
by failing to publish notice in the county where the
Defendant Walter D. Barnette could be found. The
Plaintiff had actual knowledge Defendant Walter D.
Barnette lived in Pottawattamie County, Iowa.
30. Neb. Rev. Stat. § 77-1832 through 77-1835 is
unconstitutional, individually, and as read as a whole,
and violate the Defendant Walter D. Barnette’s right
to due process and equal protection under the United
States Constitution and the Nebraska Const., art 1 § 3
and requests the court find those laws to be
unconstitutional.
31. The Defendant’s constitutional right to due
process were violated by the taking.
32. The Attorney General of the State of
Nebraska has been served with a copy of the
proceeding and is entitled to be heard.
Wherefore, Defendant and Counterclaimant
Walter D. Barnette, prays that his title to the real
estate be quieted and confirmed in Walter D. Barnette
as against the Plaintiff Pontian Land Holdings, LLC,
each of the Co-Defendants, and against all persons
having or claiming any interest in the real estate, real
names unknown, and that each of them be enjoined
forever from asserting any claim of interest in the real
estate or any portion thereof, or in the alternative,
that his rights and interest in the real estate be
protected and for such other and further relief as
equity may require.

Appendix C-8
Count II – Declaratory Judgment
33. Defendant and Counterclaimant incorporates
by reference paragraph 17 - 32 of his Counterclaim as
if fully set forth herein.
Wherefore Defendant and Counterclaimant
Walter D. Barnette, prays for an order of the Court
under Neb, Rev. Stat. § 25-21, 159 declaring:
34. The publication notice given to the Defendant
Walter D. Barnette under Neb. Rev. Stat. § 77-1834
and Neb. Rev. Stat. § 77-1835 is defective in that the
notice was not published in the county where the
Defendant Walter D. Barnette could be found/was
able to be served. The Plaintiff knew the Defendant
Walter D. Barnette lived in Pottawattamie County,
Iowa and not Sarpy County, Nebraska.
35. Neb. Rev. Stat. § 77-1832 through 77-1835 is
unconstitutional, individually, and as read as a whole,
and violate the Defendant Walter D. Barnette’s right
to due process and equal protection under the United
States Constitution and the Nebraska Const., art 1 § 3
and requests the court find those laws to be
unconstitutional.
36. Plaintiff Pontian Land Holdings, LLC is
barred from asserting a claim to the property at issue
as the Plaintiff elected foreclosure under Chapter 77,
Article 19 of the Nebraska Revised Statutes, the time
limit for foreclosure has passed, the tax sale certificate
has ceased to be valid and the lien of taxes for which
the property was sold is discharged.

Appendix C-9
37. The procedure followed by the Plaintiff in
proceeding under Chapter 77, Article 18 of the
Nebraska Revised State was flawed, including lack of
proper notice, and the tax sale certificate has ceased
to be valid and the lien of taxes for which the property
was sold is discharged.
38. The Defendant’s constitutional rights to due
process were violated.
39. Further relief and declarations the court
deems just and equitable.
40. Awarding costs of this action and reasonable
attorney fees.
WALTER D. BARNETTE,
Defendant
s/Edward F. Noethe
Edward F. Noethe
McGinn, Springer &
Noethe, PLC
20 North 16th Street
Council Bluffs, IA 51501
Phone: 712-328-1566
Fax: 712-328-3707
Email: enoethe@mcginnlawfirm.com
ATTORNEY FOR DEFENDANT
WALTER D. BARNETTE

Appendix C-10
Copy to:
Jeffrey J. Blume
Dvorak Law Group
13625 California Street, Suite 110
Omaha, NE 68154
Phone: (402) 934-4770
ATTORNEY FOR PLAINTIFF
Andrea Gosnold-Parker
Deputy Sarpy County Attorney
1210 Golden Gate Drive
Papillion, NE 68046-2889
Edward S. Swaney
1515 Bellevue Blvd.
North Bellevue, NE 68005
Edward S. Swaney
1216 Edgewood Blvd.
Papillion, NE 68046
Jim L. Kuhn
9236 Raven Oaks Drive
Omaha, NE 68152
Doug Peterson, Nebraska Attorney General
345 State Capitol
P.O. Box 98920 Lincoln, NE 68509
Via Regular Mail and Certified Mail

Appendix D-1
EFILED
Case Number:
D59Cl160000515
Transaction ID:
0003569612
Filing Date:
03/30/2016
01:10:00 PM CDT
IN THE DISTRICT COURT OF
SARPY COUNTY, NEBRASKA
PONTIAN LAND HOLDINGS
LLC., A Nebraska Limited
Liability Company,

)
)
)
)
)
Plaintiff,
)
)
vs.
)
WALTER D. BARNETTE and )
)
ANY AND ALL PERSONS
WHO HAVE OR CLAIM SOME )
LIEN UPON OR INTEREST IN )
)
THE REAL ESTATE
)
DESCRIBED BELOW, Real
)
names unknown,
)
)
Defendants.

CASE NO.

COMPLAINT
(Equity)

COMES NOW the Plaintiff, PONTIAN LAND
HOLDINGS LLC., A Nebraska limited Liability
Company, and for its cause of action against the
Defendants and each of them states and alleges as
follows:

Appendix D-2

1. Plaintiff is the owner and holder of Tax Sale
Certificate No. 12308 (“Certificate”) which was
purchased by PONTIAN LAND HOLDINGS LLC
from the Sarpy County Treasurer at public sale, after
being regularly advertised and offered and sold on or
about March 05, 2013 for delinquent real estate taxes
thereon for the years set forth on the Certificate,
under the provisions of Neb. Rev. Stat.§ 77-1801
et seq. (Reissue 1990) and amendments, said
Certificate being issued by the Sarpy County
Treasurer as provided by law. Plaintiff is therefore
entitled to foreclose on the real estate for payment of
the purchased Certificate.
2. A copy of the Tax Sale Certificate No. 12308
issued by the Sarpy County Treasurer to Plaintiff is
attached hereto as Exhibit “A”, and incorporated
herein by this reference. The Certificate constitutes a
first and superior lien in and to the following
described real estate located in Sarpy County,
Nebraska, to wit:
Lot 2, Swaney’s Addition Replat 1, an
Addition to the City of Bellevue, as
surveyed, platted and recorded, Sarpy
County, Nebraska, (the “Real Estate”).
3. Walter D. Barnette, a single person, appears
to be the owner of record title to the Real Estate or
claim an interest in the Real Estate, but said interest
is inferior, junior and subject to the lien of Plaintiff.
4.
the

The Real Estate was subject to taxation for
state
governmental
subdivisions
and

Appendix D-3
municipalities and subject to special assessments for
the years and in the amounts set forth therein and
each and every item of tax and special assessment was
duly and lawfully levied and assessed by the proper
officials upon the Real Estate. All proceedings with
respect to each such item of tax and special
assessment were legal and lawful and all
requirements and prerequisites of law were met and
complied with by all officers and persons whose duty
it was to have any part therein. All such taxes and
assessments so levied are valid existing liens upon the
Real Estate. Subsequent regular taxes for the years
indicated were duly levied and assessed against the
Real Estate in the amounts hereinafter specified and
have become and are now added liens against the Real
Estate.
5. The Real Estate was and is in the assessment
district duly created as provided by law and there
were subsequent taxes and assessments duly levied
against the Real Estate specifically assessed on the
date and in the amounts, bearing interest, as
hereinafter set forth, which may have been purchased
by the Plaintiff or remain unpaid, and constitute a lien
on the Real Estate.
6. The Certificate has not been redeemed, nor
have the subsequent taxes or special assessments
been reduced or paid or any part thereof and there is
due thereon to the Plaintiff, the owner of the
Certificate, from the Defendants the amount of the
Certificate and for subsequent general taxes with
interest at fourteen (14) percent per annum from the
several dates of delinquency thereof. Plaintiff has a
first and paramount lien on the real estate described

Appendix D-4
in the Certificate for the total amount of said taxes,
interest and charges thereon and the Plaintiff is
entitled to foreclosure thereof. The interest, if any, of
each and all of the Defendants herein in and to the
Real Estate is inferior, junior, and subject to the lien
of Plaintiff.
7. The taxes due under the Certificate are for the
2011 taxes in the amount of $1,180.90, plus
advertising and interest at the rate of 14% per annum.
8. The amount of subsequent taxes paid by the
Purchaser is: $0.00.
9. Interest has accrued on the taxes assessed.
The amount of interest to March 30, 2016 is: $503.45.
10. Defendants are owners of the Real Estate, or
are in possession thereof, or claim or appear to have
some interest therein or lien thereon, as alleged, the
Defendants designated as spouses of the Defendants
appear to have some interest therein by reason of such
marital relation but that whatever right, title or
interest the Defendants or any of them may claim to
or appear to have are inferior, junior and subject to
the lien of Plaintiff.
11. Plaintiff has reason to believe that there are
persons who have or that claim or appear to have some
interest, right or title to, or lien upon the Real Estate,
and that the ownership of, interest in, right or title to,
or lien upon such Real Estate does not appear of
record in or by their respective names in Sarpy
County, Nebraska, and the Plaintiff and its attorney
of record, after diligent investigation and inquiry, are

Appendix D-5
unable to ascertain and do not know the names or
whereabouts, if in this state, or the residence or places
of abode of such persons, and for such reason any and
all persons who have. or claim some lien upon or
interest in the Real Estate, and the herein described
parcels of Real Estate have been made party
Defendants in this action, but whatever right, title,
interest, lien or ownership in, to or upon such Real
Estate the Defendants or any of them may claim or
appear to have is inferior, junior and subject to the
lien of Plaintiff.
12. In all cases where person have died owning,
claiming or appearing to have an interest in the Real
Estate and no complete administration of their
respective estates nor legal determination of heirship
has been had in the State of Nebraska, Plaintiff and
its attorneys have made diligent investigation and
inquiry; except as to the person shown or recorded to
have conveyed any purported interest as heirs at law
or devisees of the deceased, and except as to the
Defendants alleged to the heirs at law or devisees of
such deceased, Plaintiff and its attorneys, after
diligent investigation and inquiry, have been unable
to ascertain and do not know the names, residences,
places of abode or whereabouts, if in this state, of the
heirs, devisees, legatees, personal representatives or
other person interested in the estate of such deceased
persons, and any may be and are joined herein as
Defendants under the designation any and all persons
who have or claim some lien upon or interest in the
Real Estate, real names unknown.
13. In all instances where any person owning,
claiming or appearing to have any interest in the Real

Appendix D-6
Estate conveyed his or her interest by instrument
appearing of record without his or her marital status
being shown of record without any conveyance of
record by his or her spouse, Plaintiff and its attorneys
have made diligent investigation and inquiry but,
after diligent investigation and inquiry, have been
unable to ascertain and do not know whether such
person or persons were married or single,·except as
herein alleged; or, if married, the name, residence or
whereabouts, if in this state , or any such spouse, or
the names, residences, places of abode or
whereabouts, if in this state, or the heirs, devisees,
legatees, personal representative or other persons
interested in the estates of such spouses; and any that
there may be are joined as Defendants herein under
the designation any and all persons who have or claim
some lien upon or interest in the Real Estate, real
names unknown.
14. Upon information and belief, none of the
Defendants involved in this action or being otherwise
named, designated or referred to in this action, are or
within three months last past engaged in the military
or naval service of the United States and are thereby
entitled to the benefits of the Servicemembers Civil
Relief Act.
15. Three years have elapsed since the sale of the
taxes represented by the Certificate and by reason
thereof, the right of redemption of the owners or
claimants of the Real Estate has expired and should
be foreclosed.
16. Plaintiff has incurred an expense of $150.00
for a title search necessary to determine who may

Appendix D-7
have a claim against or liens upon the real estate
described herein and such sum should be recovered as
costs herein.
17. Plaintiff is entitled to an attorney’s fee for its
attorney of record herein as provided by Neb. Rev.
Stat. § 77-1909 in the amount equal to ten percent
(10%) of the amount due for taxes, interest and costs
to be taxed as costs in this action. Pursuant to Neb.
Rev. Stat. § 77-1917, if the Certificate is redeemed
before judgment entered herein, Plaintiff is further
entitled to attorney’s fees in an amount equal to ten
percent (10%) of the amount due for taxes, interest
and costs.
WHEREFORE, Plaintiff prays that a decree be
entered finding and decreeing as follows:
1. For a decree finding in favor of Plaintiff, that
the taxes and assessments herein claimed may be
decreed and held to be liens upon the Real Estate, as
provided by law, and that upon establishment of such
a lien, the Real Estate, which remains unredeemed,
be sold at public sale to satisfy the decree so entered
together with interest and costs subject only to unpaid
real property taxes not purchased by the Plaintiff.
2. The items of tax claimed were duly assessed
and levied by the proper authorities according to law
in the separate and several amounts and for the years
claimed upon the Real Estate.
3. The Real Estate was subject to taxation for
state, county, city, school district, and municipal and
public purposes.

Appendix D-8
4. Plaintiff has a valid, prior, paramount and
first lien upon the Real Estate for the amount of taxes
assessed and levied against the Real Estate subject
only to any unpaid real property taxes not purchased
by the Plaintiff and Plaintiff is entitled to foreclosure
of that lien subject only to any lien for subsequent
unpaid real property taxes assessed and levied upon
the Real Estate.
5. That all rights, title, interest, lien, and claim
of the Defendants and each be determined and found
to be subsequent, inferior, junior and subject to the
lien of Plaintiff.
6. That an accounting be taken on the amount
due and owing to Plaintiff under and by virtue of the
Certificate and its lien for unpaid taxes, plus interest,
costs and attorney fees as provided by law.
7. That the Defendants or some of them be
ordered and directed to pay the Plaintiff’s sums as
stated and in default of such payments for 20 days
from the entry of the decree, that an order of sale be
issued and said Real Estate be sold for the satisfaction
of said lien as provided by law.
8. That this is an action in rem against the Real
Estate herein.
9. That upon the sale of the Real Estate and
upon the payment by the purchaser of all subsequent
taxes which shall have accrued, the purchasers
thereof take good and indefeasible title to the Real
Estate purchased subject only to any unpaid real
property taxes not foreclosed upon in this action, and

Appendix D-9
be placed in possession thereof upon confirmation of
sale.
10. That the Defendants and each of them be
foreclosed and forever barred of all right, title,
interest, lien, claims upon, or equity of redemption to
the Real Estate upon the confirmation of the sale.
11. That the Plaintiff recover its costs herein
expended, including attorney’s fees authorized by
statute, and for such other and further relief as the
Court deems just and equitable.
12. The Plaintiff shall have other relief as the
Court may deem just and equitable.
Dated this 30th day of March, 2016.
PONTIAN LAND HOLDINGS
LLC., A Nebraska Limited
Liability Company, Plaintiff
By: s/Lilly A. Richardson-Severn
Lilly A. Richardson-Severn,
#25625
1423 Grandview Ave.,
Suite 101
Papillion, NE 68046
402-502-1000 x100
Fax: 402-558-2323
lilly@simplybetterhomes.com
Attorney for Plaintiff

